SECURITY OF THE FEDERAL RAILROAD
  COMPUTER SYSTEMS NETWORK

       Federal Railroad Administration


        Report Number: FI-2006-029
        Date Issued: January 9, 2006
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Audit of Security                                                    Date:    January 9, 2006
           of the Federal Railroad Computer Systems Network
           FI-2006-029
  From:    Theodore P. Alves                                                                  Reply to
                                                                                              Attn. of:    JA-20
           Principal Assistant Inspector General for
            Auditing and Evaluation
    To:    Federal Railroad Administrator


           This report presents the results of our audit of the security of the network
           infrastructure at the Federal Railroad Administration (FRA). FRA relies on this
           network infrastructure 1 and the information stored in its computers to conduct its
           safety inspection mission and other critical functions, such as analyzing rail
           economics, identifying rail defense issues, and routing hazardous materials.
           Securing FRA’s network infrastructure is critical to both the Department of
           Transportation (DOT) and FRA missions because FRA is one of the Department’s
           five Operating Administrations (OAs) that have direct connections to the Internet.
           Each OA is responsible for securing its own Internet connection.

           In 1996 FRA moved out of the DOT Headquarters building due to environmental
           issues. It subsequently established its own network connections to the Internet to
           support its Washington and regional office operations. The Agency uses firewall 2
           and virtual private network (VPN) 3 technologies to secure these connection points.
           FRA has also established remote dial-up (telephone line) connections to support
           hundreds of inspectors who travel across the country performing railroad safety
           inspections, such as examining railroad tracks. Through these telephone lines,
           inspectors, who include 180 state inspectors, access information stored in the FRA

           1
               A network infrastructure consists of a set of hardware and software used to interconnect computers and users,
               regardless of their physical locations.
           2
               A firewall is a network device located at an Internet entry point. It serves as the first line of defense against cyber
               attacks from the Internet and prevents unauthorized access to an agency’s private networks.
           3
               The virtual private network (VPN) technology provides remote users with secure access to an organization’s network
               on a public or shared telecommunications infrastructure such as the Internet.
                                                                                  2


safety database and submit their inspection results, including proposed penalties
for safety violations.

Over the past 4 years, the Office of Inspector General has conducted a series of
computer security reviews at DOT Headquarters and field offices of several OAs.
These reviews have revealed many network security weaknesses that could cause
disruptions to not only individual OAs but also to the rest of the Department
because of DOT’s interconnected networks (see the Figure).


                Figure. DOT’s Interconnected Networks

                                           Internet




                        FRA Firewall/VPN              DOT Firewall/VPN




                             FRA                           DOT
                            Network                       Network




The objective of this audit was to determine whether FRA’s network infrastructure
is adequately secured to support both DOT and FRA missions. Specifically, we
sought to determine whether FRA’s (1) network computers are properly
configured and monitored to reduce the risk of attack, (2) Internet entry points are
adequately protected to prevent cyber attack, and (3) remote network entry points
used by employees and state inspectors are properly secured to prevent
unauthorized access.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards as prescribed by the Comptroller General of the
United States and performed such tests as we considered necessary to detect fraud,
waste, and abuse. Details of our scope and methodology are discussed in
Exhibit A.
                                                                                                                      3


RESULTS IN BRIEF
Overall, the FRA network was vulnerable to unauthorized access and attack from
both inside and outside the Department. For example, during the audit, our staff
was able to gain unauthorized access to FRA’s individual computers from the
Internet and obtained sensitive information 4 from these computers. In addition,
we were able to take control of a network switch managed by FRA, and the main
telephone switch maintained by the Office of the Secretary of Transportation
(OST) for FRA. We could have changed the configuration in these switches to
shut down a portion of the network or telecommunications service and cause
serious disruption so that safety inspectors could not perform their work. To
illustrate this concern, we changed the emergency contact telephone number in the
telephone switch to one in the Office of Inspector General. This activity was not
detected because FRA had not fully implemented an intrusion-detection
monitoring capability.

Given its interconnectivity with other DOT networks, FRA’s lack of security also
put other departmental systems at risk. This was caused by a combination of lax
management oversight, the absence of formal security policies and procedures, 5
and the absence of a full-time security official to oversee and enforce systems
security. 6 Now that an official with responsibility for information systems
security oversight is in place, it is critical that FRA assign a high priority to
enhancing the network security it has lacked but clearly needs.

We are providing specific recommendations to better protect computers on the
network, enhance the capability of detecting security breaches, increase personnel
security, and strengthen management oversight. FRA management agreed with
our recommendations and has started taking corrective actions.

The following summarizes what we found.

The FRA network was vulnerable to unauthorized attack from both inside
and outside the Department. Computers on the FRA network had many
vulnerabilities, some of which had been previously reported to FRA management
but remained uncorrected. Our independent assessment revealed additional
critical weaknesses not previously identified. These enabled us to gain
unauthorized access to FRA computers from the Internet, including root-level
access over a critical file server, desktop computers, and a network switch. From

4
    For security reasons, specifics concerning the weaknesses and vulnerabilities we identified and our audit procedures
    are not discussed in this report but were provided to FRA managers during the audit.
5
    FRA currently has draft security policies and procedures going through the final stages of formal coordination with
    FRA offices.
6
    The FRA Information System Security Officer (ISSO) position was vacant from June 2004 through April 2005,
    2 months after we began this review in February 2005. During that time, the Director of the Office of Information
    Technology was the Acting ISSO.
                                                                                  4


these computers we obtained sensitive information. FRA management is taking
aggressive actions to eliminate all high-risk vulnerabilities.

About 65 percent of FRA employees connect remotely to FRA’s network, which
supports FRA’s safety mission efficiently since its inspectors have to perform
railroad safety inspections, such as examining railroad tracks, throughout the
country. However, this high percentage of remote users creates a challenge for
FRA’s network security. About half of all FRA computers are not subject to
routine vulnerability checks because they are being used by employees remotely
the majority of the year. These unchecked computers, if infected with hostile
software, could become conduits for spreading problems to the rest of FRA and
other DOT networks.

Another security concern is that FRA granted 180 state inspectors access to its
network without checking with state agencies to determine whether these
personnel had received proper background investigations.             While such
investigations provide no guarantee of a person’s loyalty or trustworthiness, they
do provide some valuable information that might keep some personnel who pose a
risk to DOT security from working on DOT systems.

FRA’s Internet connections were not adequately secured. To secure a
computer network, management needs to not only patch or eliminate
vulnerabilities in computers but also install additional tools, commonly known as
intrusion-detection systems, to monitor traffic throughout the network for potential
security breaches. This detection control is especially critical to networks with
direct connections to the Internet because of relentless attacks by hackers
worldwide. FRA procured an intrusion-detection system in September 2002 and
certified that this control had been implemented in September 2003. However, we
found that FRA did not start deploying this control until June 2005, after we made
inquiries about it. FRA explained that this critical investment was idle for so long
because of the lack of technical expertise by the existing contractor personnel.
FRA management has committed to fully deploying this essential control.

While FRA’s reliance on firewall security and VPN technology to control access
to its private network from the Internet focused on the right technologies, these
tools were not properly managed. First, FRA did not remove a former firewall
administrator’s (a contractor) root-level access privileges to the firewall software
for 6 months. Second, FRA forgot to remove the VPN connection to another
contractor’s office after the contractor had completed the task. As a result, FRA
left open two paths through which unauthorized individuals could gain access into
its private network from the Internet. Both security vulnerabilities were corrected
after we brought them to FRA management’s attention. To prevent the recurrence
of such problems, FRA needs to develop a firewall security policy detailing
                                                                                 5


criteria for granting access from the Internet and requiring periodic evaluation of
the firewall and VPN configuration by the Information System Security Officer.

FRA network was vulnerable to unauthorized remote access. In addition to
using VPN connections, FRA employees and state inspectors can also access the
FRA network via dial-up modem connections. FRA has established a central
modem pool to control such access with mandatory user authentication. However,
it also allowed use of more than 50 separate dial-up lines outside of central modem
pool control. FRA could not provide justification for or locate most of these dial-
up lines. Through an unsecured line, we were able to dial into FRA’s main
telephone switch and successfully change its configuration. This vulnerability
could cause serious disruption to FRA’s telecommunications operations. FRA
took immediate action working with OST to secure the telephone switch after we
brought this issue to management’s attention.

Another form of remote access that has gained significant popularity in recent
years is wireless technology. This technology can be used to transmit data to and
from remote locations. Since wireless connections bypass traditional security
mechanisms on wired networks, such as firewalls or VPNs, they have to be
monitored carefully. FRA did not allow the use of this technology within its
network infrastructure at the time of our audit; nevertheless we found an active
wireless entry point within FRA Headquarters. This entry point was not
connected to the FRA network and, therefore, did not impose a direct threat.
However, we were concerned that FRA management did not know about this entry
point. The access point was removed after we brought it to FRA’s attention. The
lack of oversight of these remote connections was partially due to turnover of key
security staff.


FINDINGS

FRA Computer Network Was Vulnerable
Computers on the FRA network had many vulnerabilities, which had been known
for months, if not years. Our independent assessment revealed additional critical
weaknesses that were not previously identified. Together, these weaknesses
enabled our audit staff to gain unauthorized access to individual FRA computers
from the Internet and take control of part of its network infrastructure.

We also identified two other concerns. First, about half of all FRA computers are
not subject to routine vulnerability checks because they are used by employees
remotely. These unchecked computers, if infected with hostile software, could
become conduits for spreading problems to the rest of FRA and DOT networks.
                                                                                                                   6


Second, FRA granted 180 state inspectors access to its network but did not verify
with state agencies whether these inspectors had received proper background
investigations.


Known Security Vulnerabilities Not Corrected
Using commercial scanning software, we performed a vulnerability assessment of
the FRA network and found over 2,400 high-risk, 1,000 medium-risk, and
15,800 low-risk security vulnerabilities 7 on 448 computers hosted at FRA
Headquarters and regional offices. Some of these vulnerabilities are well known
in the hacker community, such as blank passwords, using the default
manufacturer’s passwords, or weak passwords. We gained total control (root-level
access) of a critical file server, desktop computers, and a network switch. We
obtained sensitive business information and could have made unauthorized
configuration changes to these computers, including installing malicious software.

• Critical file server. This server allowed us to obtain critical network
  infrastructure information. By using this information, we were able to gain
  unauthorized access to FRA computers directly from the Internet.
• Desktop computers used by FRA employees.                                     These computers yielded
  sensitive safety and personnel information.
• A network switch (a computer networking device that connects network
  segments). By taking control of this switch, we were in a position to
  reconfigure the FRA network—including shutting down a portion of it.

Some of these vulnerabilities had been known to FRA for months, if not years.
The DOT Transportation Cyber Incident Response Center (TCIRC) has been
providing weekly vulnerability scans of FRA private networks since 2003. For
example, a high-risk vulnerability we found was identified by TCIRC weekly
scans in January 2005. In fact, this same vulnerability was also identified in the
FRA systems security certification and accreditation document dated June 2003.

FRA’s inaction in correcting these known vulnerabilities was caused by the lack of
operating procedures and management oversight of contractor performance.
According to FRA officials, it relied on a contractor to review and correct these
vulnerabilities. The contractor started working with FRA in November 2004 but
had left by June 2005. The turnover of key contractor personnel caused delays in
corrective actions.


7
     High-risk vulnerabilities may provide an attacker with immediate access into a computer system, such as allowing
    execution of remote commands. Medium-risk and low-risk vulnerabilities may provide an attacker with useful
    information, such as password files, that they can then use to compromise a computer system.
                                                                                 7


While our independent assessment found vulnerabilities similar to those identified
by TCIRC, we also found additional significant weaknesses. For example, we
identified other types of weak passwords associated with root-level user accounts,
while TCIRC scans did not. FRA should work with TCIRC to expand its weekly
scans.

FRA management is acting to eliminate all high-risk vulnerabilities and is
developing a timetable for correcting those that remain.


Hundreds of FRA Computers Not Checked for Vulnerabilities
We identified a disparity in the number of FRA computers that were being
scanned by TCIRC and the total number of computers on the network. We
reviewed the TCIRC scanning results on six occasions during January and
February 2005. During these scans, the number of FRA computers varied. The
average number of FRA computers identified during each scan was less than 500,
as shown in the following table. Yet FRA has more than 1,000 computers.
Therefore, about half of all FRA computers were not subject to routine network
security checks by TCIRC.


                     Table. TCIRC Scanning Results
                  Date Scanned          No. of Computers Scanned
                     2/16/05                      550
                     2/09/05                      545
                     1/31/05                      371
                     1/26/05                      565
                     1/17/05                      323
                     1/07/05                      380
                 Average per scan                 456

FRA’s high percentage of remote users explains the discrepancy. About
65 percent of FRA employees are remote users. Many safety inspectors connect to
FRA’s network remotely the majority of the year because they have to perform
railroad safety inspections, such as examining railroad tracks, throughout the
country. They use laptops to submit their inspection reports to the safety database
hosted on the FRA network. When off the network, these computers cannot be
reached during the scans. These laptops, if infected with hostile software such as
                                                                                                                       8


viruses, spyware, or Trojan horses, 8 could become conduits for spreading
problems to the rest of the FRA network and other DOT networks. Currently,
FRA has no procedure in place to ensure that these computers are being
adequately secured and patched to prevent cyber attack.


No Assurance of Background Checks on Hundreds of State Inspectors
FRA did not inquire with state agencies as to whether the 180 state inspectors
given access to the FRA network had received proper background checks. This
was allowed to occur because of a lack of proper management oversight. These
state inspectors were given access to a sensitive safety database on the FRA
network. Some of these inspectors also have active accounts in the FRA e-mail
system. According to DOT policy, non-DOT personnel—contractors, industry
associates, or other Government employees—are subject to the same background
check requirement as DOT employees before they are allowed to access DOT
systems. FRA should immediately contact cognizant state agencies for this
information and remove the access privileges of those without proper background
checks.


Internet Entry Points Were Not Adequately Secured
FRA did not start implementing the intrusion-detection system that it procured in
September 2002 until June 2005. Installing this security is especially critical to
organizations with direct connections to the Internet because of relentless attacks
by hackers worldwide. Annually, FRA invests about 50 percent of its total IT
budget in its IT infrastructure. FRA explained that this critical investment was
idle for so long because contractor personnel lacked technical expertise.

FRA relies on firewall security and a VPN to secure its Internet connection points.
However, we found two incidents in which these technologies were not properly
managed. First, FRA did not remove a former firewall administrator’s (a
contractor) root-level access privileges to the firewall software for 6 months.
Second, FRA forgot to remove the VPN connection to another contractor’s office
after the contractor had completed the task. Both security incidents were corrected
after we brought them to FRA management’s attention.



8
    Viruses, spyware, and Trojan horses are software programs capable of replicating themselves and causing substantial
    damage to a computer. A virus is a program that infects computer files, usually executable programs, by inserting a
    copy of itself into the file. There copies are usually executed when the infected file is loaded into memory, allowing
    the virus to infect other files. Unlike a computer worm, a virus requires human involvement (usually unwitting) to
    propagate. Spyware refers to software that monitors user activity without user knowledge or consent. A Trojan horse
    is a computer program that conceals harmful code; it usually masquerades as a useful program that a user would
    want to execute.
                                                                                     9


Intrusion-Detection System Not Implemented in a Timely Manner
Intrusion detection is the process of detecting unauthorized use of or attack on a
computer or network. Intrusion-detection systems are software or hardware
systems that detect such misuse. The National Institute of Standards and
Technology recommends deploying such systems as necessary additions to an
organization’s security infrastructure. This security is particularly important to
organizations with direct connections to the Internet because of constant hacking
attacks.

FRA has spent about $500,000 to acquire and maintain a suite of security
software, including an intrusion-detection system (IDS), since September 2002.
The certification and accreditation document for the FRA network, certified in
September 2003, stated that “a network-based IDS is in place and is currently
monitoring the network for attacks and Internet abuse by internal users.”
However, we found that the implementation of the intrusion-detection system had
not begun until June 2005, after we inquired about it. FRA management explained
this critical investment was idle for so long because contractor personnel lacked
technical expertise. FRA has committed to fully deploying the intrusion-detection
system promptly.

Until the intrusion-detection system is fully deployed, FRA cannot effectively
protect its computers in today’s volatile network environment. Other DOT OAs
that have installed intrusion-detection systems have reported hundreds or
thousands of potential security breaches daily.


Firewall Security and VPN Connections Not Properly Managed
We found a security weakness in FRA’s firewall configuration. A former firewall
administrator (a contractor) still had root-level access to the firewall software after
having transferred to another position 6 months previously. With this access, the
former administrator could continue modifying the firewall configuration,
including opening additional unauthorized pathways to get into the FRA network
from the Internet.

Use of VPN technology has become increasingly popular in recent years because
it provides secure connections on public networks, such as the Internet, which is
more economical than private networks. Because 65 percent of FRA employees
remotely connect to its network, FRA has begun allowing its employees,
contractors, and state inspectors to access its private network from the Internet
using VPN technology. The number of VPN users at FRA more than doubled
during our audit. The VPN connection to a contractor’s office was not properly
managed.
                                                                                  10


• About a year ago, FRA authorized a contractor to establish a VPN connection
  to the FRA network for a specific task. However, FRA did not remove this
  connection after the contractor had completed the task. As a result, people
  working in that contractor’s office could continue accessing the FRA network
  on the Internet.

• FRA did not obtain security assurance from this contractor that the contractor’s
  network was configured to meet DOT security requirements and that only
  authorized personnel could use the connection to access the FRA network.
  The Department requires OAs to obtain such security assurances from outside
  parties before allowing them to be connected to DOT.

Both access paths were removed after we brought the issues to FRA
management’s attention. These incidents happened because FRA has not
developed a firewall security policy and did not have a procedure with which to
periodically evaluate the firewall and VPN configuration. DOT requires that each
OA develop a firewall policy and use it as a baseline for configuring its firewall so
that only legitimate network traffic can enter the protected networks. In addition,
a designated Information System Security Officer (ISSO) should periodically
review and approve all access and configuration changes made to the firewall and
VPN. However, FRA did not have a full-time ISSO until April 2005. With the
new security officer on board, FRA should assign a high priority to enhancing its
network security.


FRA Network Vulnerable to Unauthorized Remote Access
In addition to using VPN connections, FRA employees and state inspectors can
access the FRA network via dial-up modem connections. Beyond its central
modem pool, FRA allowed people to use more than 50 separate dial-up lines. Use
of these dial-up lines was neither justified nor secured, in most cases. We also
found an active wireless entry point at FRA Headquarters. While this entry point
was not connected to the FRA network and did not impose a direct threat, we were
concerned that FRA management did not know about its existence.


Dial-Up Connections Were Not Justified or Secured
FRA provided us with a list of 57 dial-up numbers that were authorized for use to
make connections to the network. However, FRA could neither explain what
these individual dial-up lines were intended for, nor justify why employees were
allowed to use these telephone line connections, bypassing central modem pool
controls.
                                                                               11


We were able to determine that 2 of the 57 dial-up lines were reserved for testing
purposes, and 1 was used for FRA Headquarters’ main telephone switch
maintained by OST. However, the dial-up line to the telephone switch was not
secured. Anyone could use that telephone number to dial into the main telephone
switch.

By using the unsecured dial-up connection and the default user password, we were
able to alter the configuration in the main telephone switch, including system
diagnostics, notification, and memory settings. For example, we changed the
emergency contact telephone number to the main number of the Office of
Inspector General without being detected.

By using these combined weaknesses, hackers could disrupt FRA
telecommunications services, which could lead to major disruptions in business
operations. FRA has taken action, working with OST, to secure the dial-up line to
its telephone switch and has agreed to disable the remaining 54 dial-up lines.


Wireless Connection Found
DOT requires that each wireless device that is used to process or store DOT data
or that connects to a DOT network, must be approved for use by the designated
official. According to FRA management, it neither used nor supported wireless
connections to its network at the time we conducted the audit. However, we found
an active wireless access point at FRA Headquarters. Later, FRA management
informed us that the access point had been used to test wireless technology and
should have been disconnected after the test.

We confirmed that the wireless entry point was not connected to the FRA
network; therefore, it did not impose a direct threat to FRA. However, we were
concerned that FRA management was not aware of the existence of this wireless
access point, which could be easily connected to the FRA network and become an
unsecured path. After we brought the issue to management’s attention, the access
point was located and removed.

The lax management oversight of these remote connections was partially due to
the turnover of key security staff. FRA did not have a full-time Information
System Security Officer until April 2005. Before that, the position was filled on
an acting basis by someone with other primary responsibilities. With a full-time
Information System Security Officer, who should report periodically to FRA’s
Chief Information Officer, FRA should assign a high priority to enhancing its
network security.
                                                                                  12


RECOMMENDATIONS
We recommend that the FRA Administrator direct the FRA Chief Information
Officer to:

Enhance FRA network security by:

   1. Eliminating all high-risk vulnerabilities identified in FRA computers within
      30 days and establishing a timetable to correct the remaining
      vulnerabilities.

   2. Ensuring that timely actions are taken to correct vulnerabilities identified in
      future weekly scanning reports.

   3. Developing a mechanism to ensure that all computers used remotely are
      periodically checked for vulnerabilities and patched with the latest security
      upgrades.

   4. Contacting state agencies to find out whether the 180 state inspectors given
      access to the FRA network have received proper background checks and
      establishing a target date to disable their access if the requested information
      is not received.

Strengthen security at Internet connection points by:

   5. Fully deploying the intrusion-detection system to monitor traffic on the
      FRA network promptly.

   6. Developing a firewall policy commensurate with DOT security
      requirements.

   7. Establishing procedures to ensure periodic evaluation of firewall and VPN
      configuration by the Information System Security Officer.

   8. Requiring that security assurance be obtained from outside entities before
      allowing them access to FRA’s private networks through VPN connections.

Prevent unauthorized remote access by

   9. Disabling the remaining 54 dial-up connections to the FRA network.

   10. Establishing procedures to periodically detect unauthorized wireless access
       points on the FRA network infrastructure.
                                                                                  13


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
A draft of this report was provided to the Federal Railroad Administrator for
comments on October 27, 2005. FRA’s Deputy Administrator responded on
November 21, 2005, and concurred with all recommendations. For security
reasons, we are not including FRA’s written response in our report due to the
specificity of the agency’s statements. However, its response is summarized
below.

The actions taken and planned by FRA are generally reasonable. However, no
target date was provided for recommendation 4 and management’s response to
recommendation 9 indicates that FRA may not disable all 54 dial-up connections.
If FRA does not disable all of these connections, management should justify the
need to use them and ensure that they are adequately secured. Specific comments
by FRA and its planned actions on our recommendations are provided below.

Recommendation 1: FRA concurred. FRA has committed to eliminating the
outstanding risks promptly.

OIG Response: The action taken and planned by FRA meets the intent of our
recommendation.

Recommendation 2: FRA concurred. FRA will institute written processes that
will ensure timely corrective actions to resolve identified vulnerabilities promptly.

OIG Response: FRA’s planned action meets the intent of our recommendation.

Recommendation 3: FRA concurred. FRA will promptly develop a plan to
ensure that all computers used remotely are regularly checked for vulnerabilities
and patched with the latest security upgrades.

OIG Response: FRA’s planned action meets the intent of our recommendation.

Recommendation 4: FRA concurred with exploration of alternative solutions.
FRA determined that out of the 30 participating programs, only 7 States perform
any type of background check on inspectors. FRA proposes limiting the access of
State program personnel who have not undergone some type of background check
to Internet email only. These users will not have access to FRA’s private network
including safety inspection systems.

OIG Response: FRA’s planned action partially addresses our recommendation.
The response did not specify how many State inspectors have received proper
background checks in accordance with DOT policies. Further, the response did
                                                                              14


not provide a target date to disable State inspectors’ access to FRA’s private
network if evidence of proper background checks is not received.

 Recommendation 5:          FRA concurred.    FRA has committed to promptly
deploying the intrusion-detection system.

OIG Response: FRA’s planned action meets the intent of our recommendation.

Recommendation 6:         FRA concurred. FRA indicated they developed and
instituted a firewall policy commensurate with DOT security requirements in
November 2005.

OIG Response: FRA’s action meets the intent of our recommendation and will
be subject to a follow-up review.

Recommendation 7: FRA concurred. FRA’s Information System Security
Officer has committed to establishing procedures to ensure periodic evaluation of
firewall and VPN configuration by December 15, 2005.

OIG Response: FRA’s planned actions meet the intent of our recommendation.

Recommendation 8: FRA concurred. In November 2005, the FRA Office of
Information Technology indicated they developed and instituted a formal VPN
process, which requires users to sign a VPN end-user agreement prior to obtaining
VPN access.

OIG Response: FRA’s action meets the intent of our recommendation.

Recommendation 9: FRA concurred in part. FRA has committed to promptly
disconnecting any remaining unused dial-up connections.

OIG Response: Based on conversation with FRA officials, they indicated that
FRA may not disable all 54 dial-up connections. In that case, management should
justify the need to retain the dial-up lines and ensure that they are adequately
secured.

Recommendation 10: FRA concurred. FRA indicated they started conducting
periodic checks of unauthorized wireless access points in November 2005.

OIG Response: FRA’s planned action meets the intent of our recommendation
and will be subject to follow-up review.
                                                                             15


ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we request that
FRA provide within 15 days, the number of inspectors without proper background
checks and a target date for disabling their access to FRA’s private network
(Recommendation 4). We also request that FRA provide information on the
number of dial-up lines that are retained and secured (Recommendation 9).

We appreciate the courtesies and cooperation of FRA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-1992 or Rebecca C. Leng, Assistant Inspector General for Information
Technology and Computer Security, at (202) 366-1488.




cc: Chief Information Officer, DOT
    Chief Information Officer, FRA
    Martin Gertel, M-1
    Victor Angelo, RAD-43
                                                                                 16



EXHIBIT A. SCOPE AND METHODOLOGY
We reviewed the underlying network infrastructure supporting FRA missions,
including Internet entry points, remote access connections, and the private
network. Specifically, we used commercial scanning software and other
commonly available scanning tools to identify network hardware (routers,
firewalls, concentrators, dial-up modems) and system software configuration
vulnerabilities that allowed unauthorized access to the FRA network. We did this
network scanning from the internal networks at FRA Headquarters and a regional
office. We interviewed key network administration officials and reviewed FRA
firewall configuration files and security policies and procedures to ensure adequate
enforcement.

Additionally, we assessed FRA wireless and VPN usage, two relatively new and
popular technologies used by many Federal agencies. We used wireless scanning
software to identify the wireless access points and evaluated whether the security
used to protect them was adequate. We also reviewed the VPN hardware and
software configuration to ensure that the settings adhered to current industry
standards and procedures. In addition, we performed limited penetration tests on
VPN connections by exploiting identified vulnerabilities.

Our audit work was performed between February and August 2005 at FRA
Headquarters in Washington, DC, and a regional office in Cambridge,
Massachusetts. The audit was conducted in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States, and included such tests as we considered necessary to provide
reasonable assurance of detecting waste, fraud, or abuse.




Exhibit A. Scope and Methodology
                                                                         17



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                   Title

Rebecca C. Leng                        Assistant Inspector General for
                                       Information Technology and
                                       Computer Security

Edward Densmore                        Program Director

Dr. Ping Z. Sun                        Project Manager

John Johnson                           Senior Information Technology
                                       Specialist

Aaron Nguyen                           Computer Scientist

Michael P. Fruitman                    Communications Adviser




Exhibit B. Major Contributors to This Report
